ES, IG-98-018, NASA Data Center General Controls -- Shuttle Processing Data Management System
NASA DATA CENTER GENERAL CONTROLS -
SHUTTLE PROCESSING DATA MANAGEMENT SYSTEM
IG-98-018
Executive Summary
Introduction
The Kennedy Space
Center (KSC) is the National Aeronautics and Space Administration (NASA)
Center of Excellence for launch and payload processing.  The Shuttle
Processing Data Management System (SPDMS) supports various critical
applications in processing the Shuttle for launch.
The United Space Alliance (USA) is responsible for the daily operation and
management of SPDMS.  The USA operates the SPDMS data center under the
Space Flight Operations Contract at an estimated annual cost of
$2 million.
Objective
The objective of this audit was to determine whether KSC has established an adequate management control structure to provide a reliable computing environment, including:
physical and environmental protection;  and
operating procedures applicable to general computer operations,
library management, data communications, storage management,
backup/recovery, and software change management.
Details on scope and methodology are in Appendix A.
Results of Audit
Overall, the KSC management
control structure for SPDMS provides a reliable computing environment.  The
USA has done a commendable job of establishing data center physical and
environmental protection controls and operating procedures for the SPDMS
environment.  However, controls associated with the monitoring of
unauthorized system access attempts can be improved.  KSC has not
documented procedures for monitoring unauthorized access attempts in one
computing environment.  Lack of procedures could result in potential
security compromises.
Recommendation
NASA should improve controls over
SPDMS operations by documenting procedures to monitor unauthorized access
attempts.
Management's Response
KSC concurred with the
recommendation and has established procedures to help improve controls.  We
consider the corrective action responsive to the intent of the
recommendation.